®mtetr States; Court of Appeal*
jfor tlje Ctgljtf) Circuit

No. 19-1790

United States of America,
Plaintiff - Appellee,
v.
Shawn Thomas Brooks,
Defendant - Appellant.

Appeal from United States District Court
for the District of Nebraska - Lincoln

Submitted: May 15, 2020
Filed: August 4, 2020
[Unpublished]

Before COLLOTON, WOLLMAN, and BENTON, Circuit Judges.

PER CURIAM.
A jury convicted Shawn Brooks on several charges arising from a series of
armed robberies in Lincoln, Nebraska. The jury found Brooks guilty on five counts
of interference with commerce by robbery and one count of conspiracy to interfere
with commerce by robbery, see 18 IJ.S.C. §§ 1951(a). and one count of bank robbery,

Appellate Case: 19-1790

Page: 1

Date Filed: 08/04/2020 Entry ID: 4941729

see 18 TJ.S.C. § 2113(a). The jury also found Brooks guilty on three counts of
possessing a firearm in furtherance of a crime of violence, two counts of brandishing
a firearm in furtherance of a crime of violence, and one count of discharging a firearm
in furtherance of a crime of violence. See 18 U.S.C. § 924('cYlYAi. The district
court1 sentenced him to 480 months in prison. Brooks appeals, arguing that there was
insufficient evidence to support the convictions.
Brooks preserved his sufficiency argument in the district court by moving for
judgment of acquittal. We review the denial of a motion for judgment of acquittal de
novo and will reverse only if no reasonable jury could have found the defendant
guilty beyond a reasonable doubt. United States v. Hamilton, 929 F.3d 943,945 (8th
Cir. 2019); see Jackson v. Virginia, 443 U.S. 307. 319 (1979).
Brooks argues that there was a “lack of evidence directly implicating” him in

I

the crimes. We disagree. A witness for the prosecution testified that he and Brooks
committed the robberies together and specifically identified Brooks as a participant
in each robbery. The witness also testified that Brooks carried a firearm during three
Of the robberies and that Brooks fired the weapon during one. Employees of two
convenience stores that were robbed testified that the taller perpetrator pointed a
firearm at the witnesses during the robberies.
Brooks argues that the principal witness’s testimony was not credible because
it was internally inconsistent and because the witness acknowledged that he testified
in hopes of receiving favorable treatment in his own criminal case. But a jury’s
credibility determinations are virtually unreviewable, because the jury is in the best
position to assess the truthfulness of the witnesses and to resolve any inconsistent
testimony. United States v. Hodge, 594F.3d614.618 (8th Cir. 2010). The testimony

1 The Honorable John M. Gerrard, Chief Judge, United States District Court for
the District of Nebraska.
-2-

Appellate Case: 19-1790

Page: 2

Date Filed: 08/04/2020 Entry ID: 4941729

of the witnesses here, if believed, was sufficient to support a reasonable finding that
Brooks was guilty beyond a reasonable doubt of the several charged offenses.
The judgment of the district court is affirmed.

!

-3-

Appellate Case: 19-1790

Page: 3

Date Filed: 08/04/2020 Entry ID: 4941729

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1790
United States of America
Appellee
v.
Shawn Thomas Brooks
Appellant

Appeal from U.S. District Court for the District of Nebraska - Lincoln
(4:17-cr-03125-JMG-2)
MANDATE
In accordance with the opinion and judgment of 08/04/2020, and pursuant to the
provisions of Federal Rule of Appellate Procedure 41(a), the formal mandate is hereby issued in
the above-styled matter.
August 26, 2020

Clerk, U.S. Court of Appeals, Eighth Circuit

